Wilson Sonsini Goodrich & Rosati
Professional Corporation
1700 K Street NW
Fifth Floor
Washington, D.C. 20006-3817
O: 202.973.8800
F: 202.973.8899

September 21, 2020
Via Electronic Filing and Email
Scott Harris, Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Schulz, et al. v. Presbytery of Seattle, et al., No. 20-261
Dear Mr. Harris:
I am counsel of record for petitioners in the above-captioned case. I
write in response to respondents’ September 18, 2020, request for an extension of time to file their brief in opposition. Petitioners do not oppose respondents’ requested 31-day extension to and including November 2, 2020.
Thank you for your attention to this matter.
Sincerely,
Steffen N. Johnson
Counsel for Petitioners
cc:

Robert B. Mitchell (counsel for respondent)

